BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for a Writ of
Certiorari in Ali Ekhlassi v. National Lloyds Insurance
Company, were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 3rd day of September, 2019:
SCOT G. DOYEN
DOYEN SEBESTA

& POELMA, LLLP
450 Gears Rd., Ste. 350
Houston, TX 77067
(713) 580-8902
sdoyen@ds-lawyers.com
Counsel for Respondent
DANIELL. GEYSER

Counsel of Record

GEYSER P.C.

One Energy Square
4925 Greenville Ave., Ste. 200
Dallas, TX 75206
(214) 800-2660
daniel. geyser@geyserpc.com
TODD LIPSCOMB
LOREE & LIPSCOMB

The Terrace at Concord Park
777 E. Sonterra Blvd., Ste. 320
San Antonio, TX 78258

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 3, 2019.

DonnaJ.~
L)
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notar
[seal]

JULIE ANNE KERSHNER
Notary Public, State of Ohio
My Commission Expires
February 21, 2023

